                                                                
 
 
 
 
 




                                                            
                                        
                                        

       STATUS OF THE FEDERAL BUREAU OF 

    INVESTIGATION’S IMPLEMENTATION OF THE 

              SENTINEL PROJECT  

                                        
                      U.S. Department of Justice 

                    Office of the Inspector General 


                                Report 11-01 

                                October 2010 





                                        
                                                             


Introduction

      This report is the seventh in the series of reviews that the Office of the
Inspector General (OIG) has conducted to examine the Federal Bureau of
Investigation’s (FBI) progress in developing and implementing Sentinel, its
new information and investigative case management system.

      According to the FBI’s original plan, established in March 2006,
Sentinel would be developed in four phases with the total cost estimated at
$425 million and the completion date was estimated to be December 2009.
Our prior reports examined the development and implementation of
Sentinel, and in those reports we expressed concerns about Sentinel’s
overall progress, schedule, increased costs, and inability to satisfy user
requirements.

      In our most recent report before this one, issued in March 2010, we
described how the FBI had issued a partial stop-work order to Lockheed
Martin Services Incorporated (Lockheed Martin), the primary contractor on
the Sentinel project, for portions of Sentinel’s Phase 3 and all of the project’s
Phase 4 because of significant issues regarding performance, usability, and
quality of work delivered by Lockheed Martin.1 In that report, we also
expressed serious concerns about the progress of the Sentinel project.

        In this report, we examine the current status of the Sentinel project.
We discuss the deployment of Sentinel’s Phase 2 as of July 2010, and we
assess the functionality of the system delivered by Phase 2 of Sentinel,
including comparing what the FBI intended to deliver to its agents and
analysts and what was actually delivered. We also describe the FBI’s recent
decision to change the partial stop-work order for Phases 3 and 4 to a full
stop-work order. We discuss our concerns that the implementation of
Sentinel is delayed, over budget, and in danger of not delivering a fully
functioning automated case management system. Finally, we discuss the
status of the FBI’s newly announced plans to complete Sentinel, and our
initial questions and concerns about that new strategy.

Background

    The FBI’s attempt to move from a paper-based to an electronic case
management system began in 2001 with the Virtual Case File (VCF), a major

                                                       
             1
         U.S. Department of Justice Office of the Inspector General, Status of the Federal
Bureau of Investigation’s Implementation of the Sentinel Project, Report 10-22
(March 2010).
       


                                                          - 1 -

                                                             


component of the FBI’s Trilogy information technology (IT) modernization
project. Designed to replace the obsolete Automated Case Support (ACS)
system, the FBI abandoned the VCF project in 2005 after spending
$170 million. As detailed in the OIG’s February 2005 audit report, the VCF
project failed for a variety of reasons, including poorly defined design
requirements, a lack of mature management processes, high management
turnover, and poor oversight.2 

      On March 16, 2006, the FBI announced the award of a $305 million
contract to Lockheed Martin as part of a $425 million project to develop a
new system – called Sentinel. The FBI expected to implement Sentinel in
four overlapping phases, each lasting 12 to 16 months. Each phase was
intended to provide a stand-alone set of capabilities upon which subsequent
phases would add further capabilities. The fourth and final phase of Sentinel
was originally scheduled to be completed by December 2009.

      The FBI intended that Sentinel, when fully implemented, would provide
FBI agents and analysts with a user-friendly, web-based electronic case
management system that would give them the ability to manage evidence
and automate the document review and approval process. Additionally,
Sentinel was designed to be the official FBI records repository and provide
users with expanded search capabilities, enhancing agents’ ability to link
cases with similar information. The FBI planned to migrate all data from
ACS to Sentinel and eventually retire ACS.3

     On June 19, 2007, the FBI announced that it had fully deployed
Phase 1 of Sentinel. Phase 1 delivered two key project components: a web-
based portal to ACS and workboxes for FBI agents and supervisors that
summarized case information.

      As a result of lessons learned during the development of Phase 1, the
FBI and Lockheed Martin replanned the remaining three phases of Sentinel.
During this replanning, the FBI estimated that the total cost of Sentinel
would increase from $425 million to $451 million and the projected
completion date was extended from December 2009 to June 2010. Also, the
FBI and Lockheed Martin adopted an incremental development methodology
for the remaining portions of Sentinel that divided Phases 2 through 4 into
                                                       
             2
         The Department of Justice, Office of the Inspector General, The Federal Bureau of
Investigation’s Management of the Trilogy Information Technology Modernization Project,
Audit Report 05-07 (February 2005).
             3
         Implemented in October 1995, ACS is the FBI’s current case management system.
As of August 2010, the paper-based ACS contains records for over 8.3 million cases.



                                                          - 2 -

                                                             


segments, which were further divided into increments. A major reason for
switching to this incremental development model was the FBI’s desire to
deliver new capabilities to users every 3 to 6 months. Phase 2 was divided
into four segments.

      By July 2009, Lockheed Martin had delivered the first three segments
of Phase 2.

      On December 2, 2009, the FBI conditionally accepted delivery of
Sentinel’s Phase 2, Segment 4, which included three of the eight electronic
forms expected to be delivered in Segment 4, and their associated
workflow.4 The FBI conditionally accepted this segment despite knowing
that what was delivered had serious performance and usability issues and
had received overwhelmingly negative user feedback during testing with FBI
agents and analysts. As a result, the FBI did not deploy Segment 4 to the
FBI’s agents and analysts when it conditionally accepted it in
December 2009.

      Then, on March 3, 2010, the FBI issued a partial stop-work order to
Lockheed Martin for portions of Phase 3 and all of Phase 4, and also returned
Phase 2, Segment 4 to the development phase from the operations and
maintenance phase. FBI officials stated that the purpose of the partial stop-
work order for Phases 3 and 4 was to focus Lockheed Martin’s efforts on
delivering Phase 2, Segment 4 in a form that the FBI would find acceptable.

      On July 26, 2010, the FBI deployed Segment 4 to FBI agents and
analysts.




                                                       
             4
          The three forms delivered were: (1) Electronic Communication, (2) Lead Request,
and (3) Report of Information That May Become the Subject of Testimony. The forms not
delivered were: (1) Intelligence Bulletin, (2) Search Results Document, (3) Payment
Authorization, (4) Export Form, and (5) Import Form. In addition, Lockheed Martin
delivered the capability to transfer all of the administrative case files – approximately
2 percent of all FBI case files – from ACS to Sentinel, an on-line user help tool, and
interfaces to two FBI IT systems, the Document Conversion Laboratory and the Financial
Management System.



                                                          - 3 -

                                                             


Results in Brief of this OIG Review

      This OIG review examined the progress of Sentinel since our last
report in March 2010. In this review, we found significant additional issues
that we believe can affect the full and successful implementation of
Sentinel.5

      Our review found that as of August 2010, after spending about
$405 million of the $451 million budgeted for the Sentinel project, the FBI
has delivered only two of Sentinel’s four phases to its agents and analysts.6
Moreover, we believe that the most challenging development work for
Sentinel still remains.

      In addition, we found that while Sentinel has delivered some
improvements to the FBI’s case management system, it has not delivered
much of what it originally intended. In July 2010, the FBI deployed Phase 2
of Sentinel, which provides the FBI’s agents and analysts with the
beginnings of an electronic case management system. Yet, by July 2010
Sentinel was intended to generate and securely process 18 paperless case-
related forms through the review and approval process. Sentinel now only
has the capability to generate and process 4 of the 18 forms.7 Moreover,
even these four forms still are not fully automated. Because Sentinel’s four
phases have not been completed, FBI agents and analysts can use Sentinel
to generate the four forms, but they must still print the forms to obtain
approval signatures, and they must maintain hard copy files with the
required approval signatures.

      Additionally, because the FBI has not finished the third and fourth
Phases of Sentinel, FBI agents and analysts do not have the planned
expanded capabilities to search the FBI’s case files. Nor can they use
Sentinel to manage evidence, as originally intended. Sentinel also has not

                                                       
             5
          Because of the significance of these issues and the recent actions taken by the FBI
regarding Sentinel, we are reporting on these issues in this technical advisory report. A
technical advisory report is not intended to comply with generally accepted government
auditing standards, as a full-scale audit report would.
             6
        The FBI has estimated that, by the end of September 2010, it will have spent
approximately $405 million.
             7
          The four forms delivered in Phase 2 were: (1) Report of Information That May
Become the Subject of Testimony, (2) Import Form, (3) Lead Request Form, and
(4) Electronic Communication Form. The FBI stated that these forms are considered the
most essential of the 18 forms to the work performed by the FBI’s agents and analysts.
However, the remaining 14 forms include important forms, such as those that are intended
to share intelligence information and track payments to informants.


                                                          - 4 -

                                        


replaced ACS, and Sentinel has not yet become the FBI’s official records
repository.

      In addition, because of Sentinel’s delays and cost increases, in
July 2010 the FBI issued another stop-work order that directed Lockheed
Martin to stop all work on the remaining phases of Sentinel – Phases 3
and 4. As of August 1, 2010, the FBI had not decided on an approach for
completing Sentinel, and FBI officials did not provide the OIG with detailed
descriptions of the alternatives under consideration for completing Sentinel.
At that time, however, the FBI Chief Technology Officer stated that the
alternatives under consideration would allow the FBI to complete Sentinel
within its $451 million budget by re-using portions of successful FBI IT
projects, including Sentinel, taking advantage of technological advances and
industry best practices, and increasing the reliance on FBI personnel to
develop Sentinel. Yet, the Chief Technology Officer acknowledged that his
estimate did not include the cost of maintaining Sentinel for 2 years after its
completion – costs which had been included in all previous Sentinel budgets.
In addition, an independent assessment conducted in July 2010 at the FBI’s
request by Mitre estimated that completing Sentinel under the FBI’s current
development approach would, at a minimum, cost an additional $351 million
and take an additional 6 years.

      After we provided the FBI a copy of our draft report for its comment in
September 2010, the FBI requested an opportunity to brief us on its new
approach for completing the Sentinel project. On September 16, 2010, the
FBI described this new approach, which is still evolving and has not yet been
formally approved. Under this new approach, the FBI will assume direct
management of Sentinel development and significantly reduce the role of
Lockheed Martin in developing Sentinel. In the final section of this report we
provide a summary of the approach that the FBI described to us, and our
questions and concerns about it.

       However, regardless of the new development approach, it is important
to note that Sentinel’s technical requirements are now 6 years old, and there
have been significant advances in technology and changes to the FBI’s work
processes during that time. We believe that the FBI needs to carefully
reassess whether there are new, less costly ways of achieving the
functionality described in Sentinel’s original requirements, including the
requirement to migrate all case data from ACS into Sentinel. The FBI stated
that it is reexamining these issues in its new approach to Sentinel. In any
new approach, we believe that the FBI should prioritize the remaining
requirements to focus on meeting its highest priorities. Finally, we believe
that the FBI should reinstitute or expand many of the project management
activities that have been either limited in scope or eliminated during the


                                     - 5 -

                                                             


course of the project, such as Project Health Assessments, which are
independent monthly analyses of Sentinel’s progress.

      The following sections of this report provide further description of the
findings of our review.

Sentinel’s Budget

       As noted above, when the FBI began development of the Sentinel case
management system in March 2006, it estimated the entire project would be
finished in December 2009 and cost $425 million. In October 2007, the FBI
increased the cost estimate for Sentinel from $425 million to $451 million.

      Our concerns about the progress of the project have intensified
because Sentinel is approximately $100 million over budget and 2 years
behind schedule. The FBI has estimated that, by the end of
September 2010, it will have spent approximately $405 million of the
$451 million currently budgeted for the entire program, but it will have
delivered only two of the program’s four phases to its agents and analysts.8
When Sentinel’s current $451 million budget was adopted, the combined
cost of Phases 1 and 2 of Sentinel was approximately $306 million. As
result, at this stage of the project, Sentinel is approximately 32 percent over
budget.

      In August 2010, FBI officials told us that they were considering a plan
that would allow the FBI to complete Sentinel development within its current
$451 million budget. They said this plan would achieve efficiencies and
reduce costs by re-using portions of FBI IT projects, including Sentinel,
taking advantage of technological advances and industry best practices, and
increasing reliance on FBI personnel to develop Sentinel.

       However, the FBI’s Chief Technology Officer acknowledged to us that
this plan did not account for the government personnel that would be
assigned to the Sentinel project or for 2 years of operations and
maintenance activities after Sentinel is completed to cover services that




                                                       
             8
           The FBI made this estimation in August 2010. The $451 million currently
budgeted for the entire program includes operations and maintenance costs for 2 years
after full implementation of all four phases of the project. The FBI has also estimated that it
will likely not complete the project until at least 2011, or approximately 2 years later than
originally planned.
 


                                                          - 6 -

                                                             


originally were to be provided by Lockheed Martin as part of the $451 million
budget.9 In addition, neither the FBI’s Chief Information Officer nor Chief
Technology Officer provided us with a schedule estimate for the work
required to complete Sentinel development using the approach they were
considering.10

       Moreover, as a result of concerns about Sentinel’s cost and schedule,
in July 2010, the FBI obtained an independent assessment for completing
Sentinel from Mitre, a federally funded research and development center.11
Mitre estimated that completing Sentinel under the FBI’s development
approach at that time would, at a minimum, cost an additional $351 million
and take an additional 6 years.

      In addition, it is important to recognize that extensions of Sentinel’s
schedule increases the likelihood that some of the hardware and software
already implemented will become obsolete, which would further increase the
cost of the Sentinel upgrade.

Status of Sentinel Phase 2 Implementation

     In July 2010, the FBI deployed Segment 4 of Phase 2 to FBI users.
The FBI informed us that it anticipates formally accepting Phase 2 from
Lockheed Martin on October 15, 2010.

      Phase 2 of Sentinel provided important benefits to FBI users, such as
an improved Sentinel user interface, the ability to search ACS through
Sentinel, and the beginnings of an electronic case management system.
However, we also found that Phase 2 delivered significantly less functionality
to FBI users than originally planned. For example, Lockheed Martin
delivered in Phase 2 the capability to create four forms and manage their


                                                       
             9
         According to the FBI, the $451 million would fund the operations and maintenance
of Sentinel through May 2012. However, because Sentinel is behind schedule, the
$451 million would not fund the operations and maintenance of Sentinel for 2 years after its
completion, as originally intended.
             10
          As noted above, additional information on the FBI’s planned approach for
completing Sentinel was received after this report was issued in draft. A summary of this
information is on page 18 of this report.
             11
            The Mitre assessment was performed from March through June 2010. Mitre is a
federally funded research and development center that assists the government with
scientific research and analysis; development and acquisition of large, complex systems;
and systems engineering and integration.



                                                          - 7 -

                                               


approval processes entirely within Sentinel. Yet, the FBI expected delivery
of eight forms with that capability during Phase 2.12

      In addition, Sentinel was intended to have the capability to share
information through interfaces with 10 other FBI IT systems external to
Sentinel instead of the 8 interfaces that Lockheed Martin delivered.13

       The FBI also expected that Sentinel would give users the capability to
open, manage, and close administrative cases, and also create, manage,
and store all of their related documents entirely within Sentinel. FBI
personnel use administrative cases to manage non-investigation activities,
including activities that support investigations such as adjustments to
personnel field office assignments and travel management in support of
investigative cases. However, in some instances Lockheed Martin failed to
deliver the anticipated capabilities for even administrative cases, such as the
ability to produce standardized management reports and also to
electronically index all of the documentation stored in Sentinel.

      In addition, the FBI decided not to make some capabilities delivered by
Lockheed Martin available to Sentinel users. For example, FBI officials
decided not to deploy the new capabilities to manage administrative cases
within Sentinel and store this case data in Sentinel as planned. The FBI said
it made this decision because it was reassessing its approach for completing
Sentinel development. The FBI’s Chief Technology Officer stated that
deploying the new administrative case management capabilities to users
would commit the FBI to moving forward on Sentinel using the current
technical design, which a study by a team of representatives from the
developers of Sentinel’s software components recommended be revised to
improve the performance and reliability of Sentinel.

             Thus, at this stage of the Sentinel project, FBI users have received far
less functionality than was planned. Sentinel largely remains a more user-
friendly way to search ACS rather than the state of the art, stand-alone case
management system that it was envisioned to provide by now.14
                                                       
       12
           The four forms deployed to FBI users in Phase 2 were: (1) Report of Information
That May Become the Subject of Testimony, (2) Import Form, (3) Lead Request, and
(4) Electronic Communication. The forms not delivered were: (1) Intelligence Bulletin,
(2) Search Results Document, (3) Payment Authorization, and (4) Export Form.
       13
          The two interfaces not delivered are: (1) Document Conversion Laboratory and
(2) Financial Management System.
       14
           As of August 2010, no case data is stored in Sentinel. Rather all case data is
stored in ACS, and Sentinel currently can access ACS for case data. The FBI had planned
by the end of Phase 4 to migrate all data from ACS to Sentinel and eventually retire ACS.


                                           - 8 -

                                                             


Sentinel Phase 1 and 2 Deliverables 

      The deployment of additional functionality to the FBI’s agents and
analysts has been increasingly delayed as the technical challenge of the
program increased in Phase 2. In June 2007, the FBI had fully deployed
Phase 1 of Sentinel, providing FBI employees with user-friendly, web-based
access to information in ACS, as well as improved search capabilities.
Phase 1 also featured a case management workbox that presented a
summary of all cases a user is involved with, rather than requiring the user
to perform a series of queries to find cases. The FBI deployed Phase 2,
Segment 1 in July 2008 and on July 26, 2010, the FBI deployed Segment 4,
the last segment of Phase 2, to all Sentinel users.

      Segment 4 of Phase 2 was scheduled to be deployed in October 2009,
but Lockheed Martin did not deliver it until December 2009. The FBI did not
deploy Segment 4 as delivered because Lockheed Martin could not resolve
several key functionality and performance issues.

       In October 2009, the FBI’s Chief Information Officer directed the
Sentinel Program Management Office (PMO) to conduct pilot deployments of
Phase 2, Segment 4 before deploying Segment 4 to all FBI users. The pilot
was designed to assess the performance of the four forms delivered in
Segment 4, to obtain additional FBI user feedback, and to allow for any
critical changes to the system or training materials before deploying the
segment to the entire FBI user community.

      However, the pilot deployments were delayed 5 months – from
December 2009 to May 2010 – because Lockheed Martin did not deliver
Segment 4 until December 2009 and because it could not resolve several
key functionality and performance issues.15 The Segment 4 pilots were
eventually conducted at the FBI field offices in Richmond, Virginia, and
Tampa, Florida, from May 12, 2010, through June 10, 2010. Major issues
surfaced at both pilot sites. For example, users at both pilot sites expressed
concerns about the lack of an auto-save capability, difficulties with using the
text editor, and the absence of an integrated spell checker. As a result of
the lack of an auto-save capability, several users lost partially completed
forms and hours of work while using Sentinel. Users also found the lack of
an integrated spell checker unacceptable because most current word
processing software includes this feature.

                                                       
             15
            As noted above, the FBI conditionally accepted Phase 2, Segment 4 on
December 2, 2009. At that time, however, the FBI directed Lockheed Martin to correct 26
critical performance and usability issues before the FBI would initiate the pilot deployment
of Segment 4.


                                                          - 9 -

                                                                    


      As of August 2010, the FBI anticipated that it would complete
 Segment 4 deployment and formally accept Segment 4 at the Segment
 Acceptance Review on October 15, 2010, approximately 1 year later than
 planned when Segment 4 began.16

        The following table shows the status of major deliverables planned for
 all of Phase 2.

                                                      Major Phase 2 Deliverables

                                Functionality                            Planned Delivered   Deployed
Administrative and Investigative Forms
     Including electronic workflows, digital                                8        4          4
     signatures, and serialization17
System Interfaces                                                          10        8          8
Enhanced User-Friendly Interface                                           Yes      Yes        Yes
Case Management Workbox
     User access to assigned cases and                                     Yes      Yes        Yes
     leads
Administrative Case Management
     Open/Manage/Close Cases Using
                                                                           Yes      Yes        No
     Sentinel
     Enhanced Search of Administrative
                                                                           Yes      Yes        No
     Cases
     Data Migration                                                        Yes      Yes        No
     Standardized Management Reports                                       Yes      No         No
 Source: OIG analysis
                                                       


                                                        
              16
             A Segment Acceptance Review is a milestone used by the Sentinel PMO to review
 the work accomplished in a segment to determine whether the planned tasks have been
 completed and whether they met the goals of the segment.
  
         17
             Workflow is the automation of a business process, in whole or part, during which
 documents, information, or tasks are passed from one participant (human or machine) to
 another for action, according to a set of procedural rules. Although Sentinel users can
 digitally sign the new Sentinel forms, they must also print and sign the forms because paper
 remains the official system of records.

            When a document is serialized, it is assigned a unique identifying sequential
 number within the case along with a unique case number. Once a document is serialized, it
 is placed into the official case file and becomes an official record.


                                                                - 10 -
                                                              


             What Was Not Delivered During Phase 2

      As noted above, Sentinel Phase 2 did not deliver all that was originally
intended. According to the initial plan for Phase 2, Lockheed Martin did not
deliver four additional forms and their associated workflow. Those forms
were the: (1) Intelligence Bulletin, (2) Search Results Document,
(3) Payment Authorization, and (4) Export Form. Incorporating these forms
into Sentinel would have significantly increased the usefulness of Sentinel to
the FBI’s agents and analysts. For example, the Intelligence Bulletin is the
FBI’s most widely disseminated intelligence product and is especially
valuable to state and local law enforcement agencies. FBI agents also
routinely use the Payment Authorization Form to pay informants. The
Search Results Document would have given Sentinel users the ability to save
part or all of the results of one or more searches to a newly created
document. The Export Form would have allowed Sentinel users to transmit
case documents and information to other FBI IT systems. None of these
forms were provided to FBI users in Phase 2 of Sentinel, as originally
intended.

      In addition, Phase 2 did not deliver the interfaces between Sentinel
and two additional FBI IT systems, the Document Conversion Laboratory and
the Financial Management System. These interfaces would allow the
transfer of information between FBI IT systems so that more complete
information can be furnished to IT users no matter which system they are
logged into -- in essence, allowing users to more easily access information
on related IT systems.18

       Lockheed Martin also did not deliver the ability to create standardized
management reports based on the data stored in Sentinel. These reports,
which are not available in ACS, would assist FBI case agents and supervisors
in monitoring the status of FBI cases, allowing them to manage cases and
resources more effectively. For example, some Sentinel management
reports focused on lead management, including the capability to view or
print reports related to leads and lead activity. Yet, during system testing of
the Phase 2 reporting capabilities, Sentinel PMO and Lockheed Martin
personnel identified significant functional challenges with the capabilities of
these reports such as the display of a single record multiple times in a
report, the inability to display multiple pages, and the inability to rename an
existing report to aid in quick identification of the report. As a result,


                                                       
             18
          For two IT systems to exchange data, both systems must build an interface for
the other. Our review did not assess the progress of interface development from other FBI
systems to Sentinel.


                                                          - 11 -
                                        


Lockheed Martin did not successfully deliver this reporting capability in
Phase 2, as originally intended.

      Deliverables Not Deployed by the FBI

      While Lockheed Martin did not provide all deliverables planned for
Phase 2, it delivered some capabilities that the FBI decided not to deploy
because of concerns the FBI had with the technical design of Sentinel.
Specifically, during the development of Segment 4, Lockheed Martin
migrated administrative case data from ACS to Sentinel (approximately
2 percent of the data in ACS). Lockheed Martin also delivered planned case
management capability for administrative cases, including the ability to open
administrative cases, add case documents to them, store the related data
within Sentinel (as opposed to ACS), and search the data stored within
Sentinel. As noted above, FBI personnel use administrative cases to
manage all non-investigation activities, including activities that support
investigations such as adjustments to personnel field office assignments and
travel management in support of investigative cases. The capability for
managing administrative cases was intended to be a prototype of the
paperless case management functionality Sentinel is ultimately intended to
deliver for all FBI cases. However, in July 2010, FBI officials decided not to
deploy the new case management functionality for administrative cases
because the FBI is currently reassessing its plan for completing Sentinel,
which includes an assessment of Sentinel’s design.

      Because the FBI had not determined the approach it will use to
complete Sentinel, it could not provide us with data on what portion of the
administrative case management functionality will be reused, if any. Also,
FBI officials stated that the FBI could not determine the cost or amount of
time spent on the portion of Sentinel that Lockheed Martin had delivered but
that the FBI decided not to deploy due to concerns about its design.

      In addition, as a result of not deploying the administrative case
management functionality, the FBI does not have the opportunity to refine
its new paperless case management capability on administrative cases
before deploying it for FBI investigative cases, when the impact of any
problems will be much greater.

Percent of Functionality Delivered by Phase 2 Segment 4

      As noted above, an independent assessment performed by Mitre at the
request of the FBI in July 2010 reviewed the Phase 2, Segment 4
functionality delivered by Lockheed Martin. According to Mitre’s assessment,
as of June 16, 2010, the as-built Segment 4 system contained approximately


                                    - 12 -
                                                              


80 percent of the functionality planned for the end of the segment.
However, the report also noted that key functionality planned for Segment 4
was incomplete, including the ability to serialize documents, complete
electronic forms, and generate reports for administrative cases.19

      FBI officials disagreed with Mitre’s assessment of how much of
Segment 4’s functionality had been delivered. The FBI’s Sentinel PMO
conducted its own assessment of Segment 4 as of July 22, 2010, using one
of the six methodologies employed by Mitre and concluded that Segment 4
had delivered 94 percent of its planned functionality.20 
       
Phase 2 Segment 4 User Acceptance

      It appears that FBI employees have been slow to adopt Sentinel’s new
forms and work flows. FBI personnel with access to Sentinel have not yet
begun to use the system as frequently as they currently use ACS. We
determined that from July 26, 2010, through August 31, 2010,
approximately the first 5 weeks after Phase 2, Segment 4 was deployed, an
average of 2,309 of the FBI’s 35,000 employees logged on to Sentinel at
least once each day and created a total of 132 new Sentinel forms. In
comparison, during the same period an average of 7,581 FBI employees
logged onto ACS each day and created an average of 14,831 documents.

      It is too early to fully assess or identify the reason Sentinel is not used
more frequently. In response to our draft report, the FBI stated that it was
premature to draw any conclusions about FBI employees’ willingness to use
Sentinel based on the first 5 weeks of deployment. The FBI also noted that
ACS-user statistics include functionality not yet offered by Sentinel. We
agree that the data does not allow for any conclusions about user
acceptance of Sentinel, but we also believe the data shows that FBI users
have been slow to adopt the new the features of Sentinel.

       In addition, because so few documents are being created in Sentinel,
the FBI has not obtained meaningful real-world data about Sentinel’s
reliability and performance when the number of users increases to the level
of ACS.


                                                       
             19
           When a document is serialized, it is assigned a unique identifying sequential
number within the case, along with a unique case number. Once a document is serialized, it
is placed into the official case file and becomes an official record.
             20
          We attributed the difference between the FBI’s and Mitre’s estimate to differences
in the methodology and updates to the software made between the dates of the two
assessments.


                                                          - 13 -
                                                              


       Nevertheless, while Segment 4 has not been deployed to users long
enough to allow us to fully analyze the use of Segment 4 or assess user
feedback on the segment’s functionality, it appears that Sentinel users, while
curious enough about the system to log on, have not yet embraced the
available functionality and workflow. We believe that the four forms
available in Sentinel and their associated electronic workflows, if they
function as designed, should eventually offer FBI agents and analysts the
ability to complete commonly used forms with a modern, user-friendly
interface without having to enter ACS. Also, the electronic workflow feature
allows FBI employees to view the approval status of any document that they
have prepared.

      The FBI has adopted a cautious approach to requiring its agents and
analysts to use Sentinel. Therefore, even after the final deployment of
Phase 2 Segment 4 in September 2010, use of Sentinel will be optional. A
Sentinel PMO official informed us in July 2010 that the use of Sentinel to
create the four forms available in Sentinel will be optional until Sentinel is
completed and all the data from ACS is migrated. As previously noted,
however, this could take several more years. As a result, FBI personnel
must still perform many ACS work processes when they complete a form
using Sentinel, such as printing and signing it. In addition, if the document
contains any indexing, an additional copy has to be printed, annotated by
hand, and forwarded to an administrative assistant so the indexed data can
be manually entered into ACS.21

      Based on this redundant process, it does not appear that Phase 2 has
substantially improved the efficiency with which FBI employees can create
case documents. Thus, users may have little incentive to use Sentinel and
may continue to use ACS for the foreseeable future.

Phases 3 and 4 of Sentinel

       As noted above, in July 2010 the FBI directed Lockheed Martin to stop
all work not associated with Phase 2. Specifically, the FBI issued a 90-day
full stop-work order for all Phases 3 and 4 activities, effective July 24, 2010,
through October 21, 2010, because Lockheed Martin was unable to close




                                                       
             21
          Names and other information can be “indexed” in the FBI’s computer system,
thereby allowing FBI personnel to determine, for example, whether an individual has been
the subject of or involved in other investigations.
        


                                                          - 14 -
                                                              


outstanding Defect Reports associated with Phase 2 development in a timely
manner.22

      The following table shows the current status of the major functions
originally planned for Phases 3 and 4.

                                    Planned Functionality for Phases 3 and 4

                                   Phase 3                         Planned   Delivered   Deployed


Case Management for all Cases                                        Yes        No         No
Advanced Search Capability                                           Yes        No         No
Standardized Reports                                                 Yes        No         No
Document and Case Indexing                                           Yes        No         No
Full Leads Management                                                Yes        No         No
Collected Items Management                                           Yes        No         No
Additional External Interfaces                                       Yes        No         No
Automated Redaction of Sensitive                                     Yes        No         No
Information
                Phase 4


Migrate all Data from ACS to Sentinel                                Yes        No         No
Additional Electronic Forms                                          Yes        No         No
Additional Standardized Reports                                      Yes        No         No
Additional External Interfaces                                       Yes        No         No
Complete Indexing                                                    Yes        No         No
Certified Records Management                                         Yes        No         No
Source: OIG Analysis

      Thus, while major functionality included in Phases 3 and 4 was planned
for delivery by September 2010, none of it from Phases 3 and 4 has been
delivered or deployed. Moreover, the planned requirements are now over
6 years old and need to be re-evaluated because of changing technology.




                                                       
             22
           Although not stated in the stop work order, the FBI’s response to our draft report
said that advances in technology also contributed to the decision to issue the stop work
order.


                                                          - 15 -
                                        


Cost of Completing Sentinel Development

      As of the beginning of August 2010, the reassessment of Sentinel was
not complete and the FBI would not provide detailed descriptions of the
alternatives under consideration. The FBI Director stated in July 28, 2010,
testimony before the Senate Judiciary Committee that the FBI was assessing
the possibility of completing Sentinel development using primarily FBI
personnel instead of contractors, and he stated that this development
approach could allow the FBI to complete the Sentinel project within its
current estimate of $451 million. The FBI’s Chief Technology Officer said to
us that the alternatives under consideration would re-use portions of
successful FBI IT projects, including Sentinel, and take advantage of
technological advances and industry best practices to complete Sentinel
within its current $451 million budget.

      However, the FBI’s Chief Technology Officer told us that the FBI’s
current estimate for completing Sentinel does not include the cost of
operating and maintaining Sentinel for 2 years after its completion, which
was part of the original costs included in the $451 million budgeted for
Sentinel. The FBI currently is budgeting $31 million of the $451 million for
this maintenance cost.

      We believe the cost to complete and maintain Sentinel for 2 years, as
originally planned, will be significantly more than the $451 million currently
budgeted and significantly more than what the FBI projects as its costs.

      In March 2010, the FBI had requested an independent assessment
from Mitre of what it would cost to complete Sentinel under the FBI’s current
development approach. Mitre concluded that the additional cost would be
between $351 and $453 million and take between 6 and 8 years. At about
the same time, Lockheed Martin provided a completion cost and schedule
estimate of $194 million and February 2013 for completing Sentinel that
were significantly less than Mitre’s estimate, but still substantially greater
than the FBI’s last official estimates.

      We believe that Mitre’s July 2010 assessment, which estimated that
completing Sentinel under the FBI’s current development approach would
cost an additional $351 million and take an additional 6 years, is a
reasonable starting point for cost projections of the work required to
complete Sentinel. However, as detailed below, the FBI has recently
proposed to reduce the cost and time required for completing the
functionality of Sentinel by sharply reducing the contractor and FBI staff
assigned to work on Sentinel, by bringing development of Sentinel largely
in-house at the FBI, and by foregoing or revising some of the remaining


                                    - 16 -
                                       


requirements that were intended to be provided by Sentinel. Our questions
and concerns about the FBI’s proposed new approach to Sentinel completion
are discussed below.

Monitoring Sentinel Program Status

      We found that the FBI has either limited in scope or eliminated several
project management activities that were designed to help it monitor the
progress of Sentinel’s development. We believe the FBI should reinstate
these project management activities. For example, in December 2009, the
FBI discontinued Sentinel’s Project Health Assessments. Performed by the
FBI’s Enterprise Requirements and Assessment Unit, these assessments
provided an independent assessment of Sentinel’s cost, schedule, and scope.
We believe the FBI should resume issuing these monthly assessments.

      The FBI should also resume Earned Value Management (EVM)
reporting on all Sentinel development activities in accordance with OMB
guidance. The FBI stopped EVM reporting for Phase 2 in December 2009,
and the EVM reporting for Phase 3 has not complied with OMB guidance
since May 2010. EVM is an important risk management tool for major
capital investments that measures the performance of a project by
producing cost estimates, evaluating progress, and analyzing cost and
schedule performance trends.

      In response to our draft report, the FBI said that EVM and Project
Health Assessments were discontinued as a result of the March 2010 partial
stop work order because there was no schedule or baseline against which
the FBI could measure its progress. While we agree there was not baseline
to measure against, according to DOJ policy on implementing EVM, once the
FBI realized that Sentinel was significantly behind schedule and over budget,
the FBI should have established a new baseline for measuring Sentinel’s cost
and schedule performance.

       The FBI should also expand the scope of Sentinel’s independent
verification and validation. Independent verification and validation is a
standard information technology investment management process in which
an independent entity assesses the system as it is developed to evaluate
whether the software will perform as intended. Throughout the project, the
Sentinel independent verification and validation team has provided useful
recommendations, and early warnings of foreseeable program issues.
However, because of funding constraints, Sentinel’s independent verification
and validation efforts do not cover all aspects of the program. For example,
the independent verification and validation team does not assess Sentinel’s
EVM processes, data, or reports.


                                   - 17 -
                                        


FBI’s Potential Approach to Complete Sentinel

      After we provided to the FBI in September 2010 a copy of our draft
report for its review and comment, the FBI requested an opportunity to
provide us with a briefing that outlined the FBI’s new approach for
completing the Sentinel project. The FBI briefed us on its new approach on
September 16, 2010.

      Under this approach, the FBI is planning to assume direct
management of Sentinel development and reduce the role of Lockheed
Martin as the prime contractor. The FBI stated that it will employ an “agile
methodology” to complete the development of Sentinel, using fewer
employees from the FBI, Lockheed Martin, and the companies that have
supplied the major off-the-shelf components of Sentinel. Overall, the FBI
plans to reduce the number of contract employees working on Sentinel from
approximately 220 to 40. The FBI said that, at the same time, the number
of FBI employees assigned to the project will also decrease from 30 to 12.

       The FBI asserted that this new, agile approach will streamline
decision-making processes and allow the FBI to deliver Sentinel within
budget. The FBI stated that there is approximately $45 million remaining of
the current $451 Sentinel budget. The FBI stated that about $25 million of
the remaining $45 million will be used to support the operation and
maintenance of deployed Sentinel functions. The FBI told us that it believes
it can complete Sentinel with the approximately $20 million remaining in the
Sentinel budget and within 12 months of beginning this new approach.

      The FBI’s Chief Technology Officer stated that, under this approach, he
anticipates deploying updated Sentinel functionality to FBI users
approximately every 3 months. However, the Chief Technology Officer
acknowledged that the FBI had not yet conducted a full technical assessment
of what has already been delivered by Lockheed Martin to determine what
portions could be utilized in the remaining development of Sentinel.

      Moreover, the FBI’s new approach does not include migrating ACS data
into Sentinel, which has been a major development assumption throughout
the Sentinel project. Instead, the FBI believes it can enhance ACS search
functions through Sentinel, which would provide search results in Sentinel
similar to those that would be provided if the data from ACS was actually
migrated into Sentinel. However, as a result, the FBI will have to maintain
two case management systems simultaneously.

        According to the FBI, the FBI’s new approach to complete Sentinel is
still in a development phase and still requires the FBI Director’s final


                                    - 18 -
                                          


approval. It also requires approval from the Justice Department’s
Investment Review Board (the DIRB), as well as certification from OMB,
before the FBI can expend any FY 2011 funding for the Sentinel project.

      Additionally, this new approach will require revised contract
agreements with Lockheed Martin. The FBI acknowledged that the
remaining costs for Sentinel development must also include any settlement
costs for modifying the current contractual relationship with Lockheed
Martin.

      The FBI’s new plan to develop Sentinel is still evolving, is not officially
approved, and is undocumented. Our initial consideration of the FBI’s new
and evolving plan raises several immediate concerns and questions,
including:

      (1) the undocumented 1-year estimate for system completion appears
      to us to be optimistic based on the FBI’s past history with IT projects;

      (2) the undocumented $20 million cost estimate for Sentinel
      completion also appears optimistic given the cost to date of partially
      implementing Sentinel, and given that $20 million is approximately
      90 percent less than what Lockheed Martin estimated was needed to
      complete the Sentinel project;

      (3) the FBI has not fully assessed what portions of Sentinel, or other
      FBI systems, can or will be used in further developing the project;

      (4) the large reduction in the level of manpower to develop and
      oversee Sentinel, from about 250 FBI and contractor personnel to
      approximately 50, while useful in keeping costs down, may not be
      sufficient to complete the system;

      (5) we believe that reduced functionality for Special Agents and other
      users is likely, given the FBI’s reduced resources for developing
      Sentinel and the aggressive implementation schedule;

      (6) it is unclear what role FBI user feedback will have in the
      development process;

      (7) the FBI has little experience using this new development approach;

      (8) the full development of Sentinel’s workflow process, which has
      been troublesome to this point, remains to be completed; and



                                      - 19 -
                                                              


             (9) although the FBI no longer plans to migrate data from ACS into
             Sentinel, the FBI will still have to implement a modern search
             capability for the over 8 million ACS cases, a task that could prove
             costly and problematic given the volume of the data and the FBI’s
             inexperience with that approach.

      Additionally, in September 2010 Carnegie Mellon’s Software
Engineering Institute (SEI) performed an independent review of the FBI’s
new approach for completing Sentinel.23 The SEI stated that the FBI’s
decision to attempt an agile approach is “a positive step toward
improvement over the prior development approach.” However, SEI
expressed similar concerns to ours, including the largely undocumented
details of the FBI’s new plan, the FBI’s inexperience in using an agile
development methodology, and the unknowns concerning the viable state of
and path forward for the technical design of Sentinel.

      In sum, we have significant concerns and questions about the ability of
this new approach to complete the Sentinel project within budget, in a
timely fashion, and with similar functionality as what the Sentinel project
previously sought to provide. As the planning process for the completion of
the Sentinel project continues to evolve and as it is implemented, we will
continue to evaluate and report on Sentinel’s progress.

Conclusion

       In March 2006, the FBI launched development of Sentinel in an
attempt to implement a paperless case management system throughout the
FBI. Sentinel was originally planned to cost $425 million and be fully
deployed by December 2009. Sentinel’s development followed an earlier
failed attempt at a case management system called the Virtual Case File
(VCF), a part of the Trilogy project that was initiated in 2001 and terminated
in 2005 after the FBI spent $170 million on the development of the VCF.
Each of these systems was supposed to move the FBI away from ACS, an
antiquated 15-year-old paper-based case management system, and to
provide over 30,000 FBI agents, analysts, and administrative employees
with state of the art ability to investigate violations of federal criminal
statutes.

     As of August 2010, the FBI’s Sentinel system is at least 2 years behind
schedule and at least $100 million over budget. According to its original
                                                       
             23
          SEI is a federally funded research and development center based at Carnegie
Mellon University that works with defense and government organizations to improve
software-intensive systems, such as Sentinel.


                                                          - 20 -
                                        


system plan, Sentinel was to be fully completed by now. However, only two
of Sentinel’s intended four phases have been substantially completed, and
some of the most difficult tasks are still to come. The FBI has spent about
$405 million for the development of the functionality that it has provided to
date, along with aspects of the project that may or may not be implemented
depending on a reassessment the FBI is now performing in an effort to
complete Sentinel within its defined budget of $451 million.

      Based on Sentinel’s progress and spending to date, as well as other
cost estimates, we believe that if implemented as it was originally intended,
Sentinel would cost much more than the $451 million it was budgeted for
and will take far longer to complete.

      We are also concerned that the longer the full implementation of
Sentinel takes, the more likely it is that already implemented hardware and
software features will become obsolete.

      Further, the development strategy that the FBI is now proposing to
keep Sentinel within its “defined budget” does not reflect Sentinel’s true
costs because it does not provide the cost for maintaining Sentinel for
2 years after the system is fully developed as the original plan included.
This distorts any assessment of whether the system will remain within its
current budget.

      Sentinel’s budget and schedule overruns affect the daily work of the
FBI’s 35,000 employees. If Sentinel had stayed on schedule, FBI agents,
analysts, and other employees would now have a complete electronic case
management system, including streamlined workflows for managing and
assigning work, advanced name and document search capabilities, and
paperless case files. Instead, they have to continue to rely on ACS and its
time consuming paper-based case management processes. The manual
processes required by ACS are susceptible to errors and limit information
sharing, inhibiting the FBI’s ability to “connect the dots” using information
stored in its case files.

      Further, the FBI is now considering abandoning its requirement to
migrate records for over 8.3 million current and closed cases into Sentinel
from ACS. While we understand that this requirement may fall victim to cost
containment and technical implementation obstacles, it would raise
questions about the cost and complexities of the FBI having to maintain two
separate case management systems for the foreseeable future – an obsolete
system for old cases (ACS) and another system for new cases (Sentinel).




                                    - 21 -
                                         


      The FBI’s implementation of Phase 2 has not gone smoothly. Because
of changes in the FBI’s overall approach for completing Sentinel, as well as
continued concerns about Lockheed Martin’s design of Sentinel, the FBI
decided to not make certain case management capabilities available to
Sentinel users because it would commit the FBI to a particular approach to
completing Sentinel. As a result, FBI employees must continue to use ACS
business processes related to those functions.

      It is also too early to judge whether FBI users are embracing the
functionality Phase 2 provided because the users are not required to enter
information into Sentinel and still have the option of using ACS exclusively.
We have seen only a limited number of users begin to use and create
documents within the system. As a result, we cannot determine whether the
system will be able to adequately function if most users are logged in
simultaneously.

      The FBI is at a crossroads on the system’s future. In July 2010, the
FBI issued a stop-work order to Lockheed Martin on Sentinel’s Phases 3
and 4. The FBI recently announced a new plan for completing Sentinel.
Under this new plan, the FBI would employ a new, “agile methodology” and
assume direct management of Sentinel development, reducing the role of
Lockheed Martin as the prime contractor.

       The FBI’s plan for completing Sentinel is still evolving, and is not yet
fully developed or officially approved. However, our initial consideration of
the plan, after an oral briefing, raises significant concerns and questions
about the FBI’s planned approach, including ones relating to the cost,
schedule, and amount of work to complete Sentinel. We are also concerned
that budget and schedule constraints might reduce the functionality
ultimately delivered to the FBI’s agents and analysts. In addition, the FBI
has little experience using this new development methodology. 
        
       We believe that these issues and these concerns affect whether
Sentinel will ultimately provide, in a timely manner and within a reasonable
budget, the automated case management system that FBI employees need
to most effectively perform their vital mission.




                                     - 22 -
                                      


Recommendations

    We recommend that the FBI:

    1. Reassess the functionality described in Sentinel’s requirements,
       including the requirement to migrate all case data from ACS into
       Sentinel, and update the requirements as necessary.

    2. Prioritize the remaining requirements so that if the FBI cannot
       afford to meet all of them, it can focus on those requirements that
       have the greatest impact on its agents and analysts.

    3. Reinstitute Project Health Assessments and EVM for Sentinel, and
       expand the scope of Sentinel’s independent verification and
       validation efforts.




                                  - 23 -
                                                      u.s. Department of Justice

                                                      Federal Bureau of Investigation


                                                      Washington, D. C. 20535-0001

                                                      October 14, 2010



Honorable Glenn A. Fine
Office of the Inspector General
U.S. Department of Justice
Suite 4706
950 Pennsylvania Avenue, N. W.
Washington, D.C. 20530


Dear Mr. Fine:

                The Federal Bureau of Investigation (FBI) appreciates the opportunity to review
and respond to your interim technical assistance report entitled, ItStatus of the Federal Bureau of
Investigation's Implementation of Sentinel Project" (hereinafter ttReporttt).

                Based upon a review of the Report, the FBI concurs with the three
recommendations directed to the FBI and has already taken steps to implement them. Please feel
free to contact me at 202-324-6165 should you have any questions.



                                                      Sincerely yours,

                                                       ~/~----
                                                      Chad L. Fulgham
                                                      Executive Assistant Director
                                                      Information and Technology Branch




                                             - 24 -
 

                         OIG Review of the FBI's Sentinel Program VI
 
                   FBI Response to Recommendations within the Final Draft
 
                                                   
                                                   
Recommendation 1:  Reassess the functionality described in Sentinel’s requirements, including 
the requirement to migrate all case data from ACS into Sentinel, and update the requirements 
as necessary. 
 
FBI Response to Recommendation #1: 
 
Concur.  Sentinel’s System Requirements Specification (SRS) have already been assessed by FBI 
IT executive management.  In this regard, the FBI has reviewed each and every requirement set 
forth in the current Sentinel SRS document.  This review has focused on assessing both the 
importance and feasibility of meeting each particular requirement.  With respect to the 
migration of all case data from ACS to Sentinel, it should be noted that this was not ever an SRS.  
The FBI has re‐assessed the plan to migrate all case data from ACS to Sentinel using all the 
information gained during Phases I and II of Sentinel, in conjunction with advances in 
technology over the past seven years, and has determined that it may be more efficient and 
equally effective to go forward from a selected date wherein all new case data will be entered 
into Sentinel.  Sentinel will still have the capability of accessing ACS data via search tools within 
Sentinel.  The re‐evaluation of the plan to migrate all case data from ACS to Sentinel, and the 
decision that the migration is not necessary, is reflective of the FBI’s re‐assessment of every 
aspect of this project prior to embarking on the Agile approach currently being undertaken. 
 
The requirements within the SRS fall into several categories.  Over 500 of the requirements fall 
into standard requirements that any application would have, such as security, performance, 
operating/browser environment, records management, interface, and training.  The other 
detailed requirements are being broken into four main areas: Forms; Workflow/Leads; 
Serialization; Reporting/Searching/Alerting.  The plan forward using the Agile development 
methodology will allow the FBI to improve the delivery of the requirements. 
 
Recommendation 2:  Prioritize the remaining requirements so that if the FBI cannot afford to 
meet all of them, it can focus on those requirements that have the greatest impact on its agents 
and analysts. 
 
FBI Response to Recommendation #2: 
Concur.  As noted above, all Sentinel requirements have been categorized into functional 
requirements and non‐functional requirements.   
 
The functional requirements have been prioritized and sequenced to focus on the most 
valuable requirements.  The functional requirements have been prioritized and will be 
developed as follows: 
 



                                              - 25 -
 


       Forms;  
       Workflow/Leads;  
       Serialization; and 
       Reporting/Searching/Alerting. 
 
The non‐functional requirements need to be met with each delivery.  The non‐functional 
requirements include areas such as: security, performance, operating/browser environment, 
records management, interface, and training. 
 
At every step of the way, as the functional requirements are tested, utilizing automated testing 
tools, the non‐functional requirements will be tested as well, ensuring that as we add functional 
requirements, the non‐functional requirements are never overlooked. 
 
Recommendation 3:  Reinstitute Project Health Assessments and EVM for Sentinel, and expand 
the scope of Sentinel’s independent verification and validation efforts. 
 
FBI Response to Recommendation #3: 
 
Concur.  Project Health Assessments and Earned Value Management were suspended when 
independent assessments revealed that defects existed that impacted baseline requirements, a 
stop‐work order was issued, and the FBI began to assess a new way forward.   Both these 
mechanisms are being reinstituted with the Agile approach.  Project Health Assessments are 
critical to Agile methodology and will be conducted as part of each quarterly delivery review.  
Earned Value Management will be monitored in a manner consistent with Agile processes and 
will reviewed by the Department of Justice.  The FBI will also continue its practice of obtaining 
independent verifications of the project through IV&V reviews by BAH to ensure that course 
corrections can be implemented as appropriate. 




                                             - 26 -
                                                                APPENDIX II 




              OFFICE OF THE INSPECTOR GENERAL 

             ANALYSIS AND SUMMARY OF ACTIONS 

               NECESSARY TO CLOSE THE REPORT



       The OIG provided a draft of this report to the FBI. The FBI’s response
is incorporated in Appendix I of this final report. The following provides the
OIG analysis of the response and summary of actions necessary to close the
report.

Recommendation Number:

   1.	 Resolved. The FBI concurred with our recommendation to reassess
       the functionality described in Sentinel’s requirements, including the
       requirement to migrate all case data from ACS into Sentinel, and
       update the requirements as necessary. The FBI stated that its
       information technology executive management reviewed all Sentinel
       requirements in Sentinel’s System Requirements Specification (SRS).
       The FBI’s response also stated that data migration from ACS into
       Sentinel had not been assigned an SRS requirement number.

      However, the SRS did identify ACS data migration as a planned
      project activity, and ACS data migration has been a major project
      assumption affecting Sentinel development design. As a result, we
      believe the FBI should ensure that the data remaining in ACS is
      compatible with all Sentinel functionality, whether ACS data is
      migrated into Sentinel or is searchable through Sentinel.

      This recommendation can be closed when we receive documentation
      demonstrating the FBI’s review of all SRS requirements has been
      completed, and when we receive documentation identifying the
      satisfactory disposition of all SRS requirements and major project
      assumptions, including whether ACS is migrated into Sentinel or
      searchable through Sentinel.

   2.	 Resolved. The FBI concurred with our recommendation to prioritize
       the remaining requirements of Sentinel so that if the FBI cannot
       afford to meet all of them, it can focus on those requirements that
       have the greatest impact on its agents and analysts. The FBI stated
       that Sentinel’s requirements have been categorized into functional
       and non-functional requirements, which the FBI has prioritized and
       sequenced to focus on the most valuable requirements. This


                                    - 27 -
 


       recommendation can be closed when we receive documentation
       identifying the FBI’s prioritization of Sentinel’s requirements.

    3.	 Resolved. The FBI concurred with our recommendation to reinstitute
        Project Health Assessments and Earned Value Management (EVM) for
        Sentinel, and expand the scope of Sentinel’s independent verification
        and validation (IV&V) efforts. The FBI stated that Project Health
        Assessments and EVM reports are being reinstituted with the Agile
        approach, and that IV&V reviews will continue. This recommendation
        can be closed when we receive documentation demonstrating that
        Project Health Assessments and EVM reports have been reinstituted,
        and the scope of IV&V reviews have been expanded.
 




                                    - 28 -
